<html>
<title> - [H.A.S.C. No. 113-106] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2015 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED THIRTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                                     

 
                         [H.A.S.C. No. 113-106]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2015

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                  FISCAL YEAR 2015 BUDGET REQUEST FOR

                  THE DEFENSE THREAT REDUCTION AGENCY

                  AND THE CHEMICAL BIOLOGICAL DEFENSE

                     PROGRAM: COMBATING WEAPONS OF

                     MASS DESTRUCTION IN A CHANGING

                           GLOBAL ENVIRONMENT

                               __________

                              HEARING HELD

                             APRIL 8, 2014

                                     
[GRAPHIC] [TIFF OMITTED] 

                                     




                  U.S. GOVERNMENT PRINTING OFFICE
88-451                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




    SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS AND CAPABILITIES

                    MAC THORNBERRY, Texas, Chairman

JEFF MILLER, Florida                 JAMES R. LANGEVIN, Rhode Island
JOHN KLINE, Minnesota                SUSAN A. DAVIS, California
BILL SHUSTER, Pennsylvania           HENRY C. ``HANK'' JOHNSON, Jr., 
RICHARD B. NUGENT, Florida               Georgia
TRENT FRANKS, Arizona                ANDRE CARSON, Indiana
DUNCAN HUNTER, California            DANIEL B. MAFFEI, New York
CHRISTOPHER P. GIBSON, New York      DEREK KILMER, Washington
VICKY HARTZLER, Missouri             JOAQUIN CASTRO, Texas
JOSEPH J. HECK, Nevada               SCOTT H. PETERS, California
                Peter Villano, Professional Staff Member
                 Tom Nelson, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                          Julie Herbert, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Tuesday, April 8, 2014, Fiscal Year 2015 Budget Request for the 
  Defense Threat Reduction Agency and the Chemical Biological 
  Defense Program: Combating Weapons of Mass Destruction in a 
  Changing Global Environment....................................     1

Appendix:

Tuesday, April 8, 2014...........................................    23
                              ----------                              

                         TUESDAY, APRIL 8, 2014
FISCAL YEAR 2015 BUDGET REQUEST FOR THE DEFENSE THREAT REDUCTION AGENCY 
AND THE CHEMICAL BIOLOGICAL DEFENSE PROGRAM: COMBATING WEAPONS OF MASS 
              DESTRUCTION IN A CHANGING GLOBAL ENVIRONMENT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Intelligence, Emerging Threats 
  and Capabilities...............................................     1
Thornberry, Hon. Mac, a Representative from Texas, Chairman, 
  Subcommittee on Intelligence, Emerging Threats and Capabilities     1

                               WITNESSES

Hersman, Rebecca K.C., Deputy Assistant Secretary of Defense for 
  Countering Weapons of Mass Destruction, Department of Defense..     4
Myers, Kenneth A., III, Director, Defense Threat Reduction Agency     5
Spencer, Carmen J., Joint Program Executive Officer for Chemical 
  and Biological Defense, Department of Defense..................     6
Weber, Andrew C., Assistant Secretary of Defense for Nuclear, 
  Chemical, and Biological Defense Programs, Department of 
  Defense........................................................     2

                                APPENDIX

Prepared Statements:

    Hersman, Rebecca K.C.........................................    35
    Myers, Kenneth A., III.......................................    45
    Spencer, Carmen J............................................    62
    Weber, Andrew C..............................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Franks...................................................    77

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
FISCAL YEAR 2015 BUDGET REQUEST FOR THE DEFENSE THREAT REDUCTION AGENCY 
AND THE CHEMICAL BIOLOGICAL DEFENSE PROGRAM: COMBATING WEAPONS OF MASS 
              DESTRUCTION IN A CHANGING GLOBAL ENVIRONMENT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                   Subcommittee on Intelligence, Emerging  
                                  Threats and Capabilities,
                            Washington, DC, Tuesday, April 8, 2014.
    The subcommittee met, pursuant to call, at 2:04 a.m., in 
room 2212, Rayburn House Office Building, Hon. Mac Thornberry 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM 
TEXAS, CHAIRMAN, SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Thornberry. Subcommittee will come to order. Today we 
are holding a hearing on combating weapons of mass destruction 
in a changing global environment.
    This is part of our regular series of hearings in 
preparation for the 2015 National Defense Authorization Act and 
we are focusing today primarily on the budget for the Defense 
Threat Reduction Agency [DTRA] and Chemical Biological Defense 
Programs.
    So I appreciate very much all of our witnesses being here. 
Hopefully you all understand that schedules are difficult, with 
four votes and a variety of things.
    So with that in mind, I am going to forego any further 
opening statement and yield to the distinguished gentleman from 
Rhode Island.

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
  RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON INTELLIGENCE, 
               EMERGING THREATS AND CAPABILITIES

    Mr. Langevin. Well thank you, Mr. Chairman.
    And I want to thank our witnesses for being here today.
    My opening statement is going to be very brief, but the 
report of the 2014 Quadrennial Defense Review [QDR], as the 
ones before it, recognized that the proliferation of weapons of 
mass destruction, be they nuclear, biological, chemical, or 
radiological, remains a great threat to our country, our 
allies, and our friends. Conventional strategic deterrence is a 
key component to our national defense, and the nuclear surety 
program is an important part of that.
    However, keeping WMD [weapons of mass destruction] out of 
the hands of violent extremists remains a significant 
challenge. In an increasingly connected world there is real 
potential for those weapons-related technologies to spread and 
evolve, especially when you are dealing with dual-use 
technologies, which are hard to know what the original purposes 
were, whether it is going to be nefarious intent or for 
something that is necessary or positive.
    Accordingly, the QDR states that the global prevention, 
detection, and response efforts are essential to address 
dangers across the WMD spectrum before they confront the 
homeland.
    Our witnesses today represent organizations critical to 
those tasks, and I look forward to hearing about your efforts.
    However, it appears that the trends for your budget 
requests are on a downward path, and I find that concerning. 
Funding is decreasing as the threats we face are becoming more 
prolific and sophisticated, including as yet unknown pathogens 
or nontraditional chemical agents or weaponized biologics.
    Today we seek a better understanding of how these budget 
proposals will meet our national security requirements for 
countering WMD. Look forward to your testimony.
    Thank you, Mr. Chairman. And with that I will yield back.
    Mr. Thornberry. Thank the gentleman.
    I will just say I share his concerns. I think he is right.
    We are pleased to have Mr. Andrew Weber, Assistant 
Secretary of Defense for Nuclear, Chemical, and Biological 
Defense Programs; Ms. Rebecca Hersman, Deputy Assistant 
Secretary of Defense for Countering Weapons of Mass 
Destruction; Mr. Kenneth Myers, Director of Defense Threat 
Reduction Agency; and Mr. Carmen Spencer, Joint Program 
Executive Officer, Chemical and Biological Defense.
    Without objection, your complete written statements will be 
made part of the record, and you will each be recognized to 
summarize your comments if you can.
    Mr. Weber.

 STATEMENT OF ANDREW C. WEBER, ASSISTANT SECRETARY OF DEFENSE 
    FOR NUCLEAR, CHEMICAL, AND BIOLOGICAL DEFENSE PROGRAMS, 
                     DEPARTMENT OF DEFENSE

    Mr. Weber. Thank you.
    Chairman Thornberry, Ranking Member Langevin, and 
distinguished members of the subcommittee, thank you for 
inviting us to testify about Department of Defense [DOD] 
countering weapons of mass destruction programs. I am pleased 
to be here with my esteemed colleagues.
    While my testimony for the record provides more detail, I 
want to briefly highlight two examples of what we have achieved 
recently through our country's investments in countering 
chemical, biological, and nuclear threats. The first is the 
Department's contribution to destroying serious chemical 
weapons materials, which the Assad regime used to kill 
civilians in Syria last summer and posed a looming threat to 
Israel, Jordan, and the region.
    This week a team of U.S. Army civilians arrived in Rota, 
Spain, to begin their mission of neutralizing some of Syria's 
most dangerous chemicals. They will perform this work aboard 
the motor vessel [MV] Cape Ray using Field Deployable 
Hydrolysis Systems.
    Carmen, Ken, and others on our team led some of the 
greatest scientists, engineers, and managers in the Department 
of Defense to develop these systems within just 6 months based 
on safe, proven chemical weapons destruction technology--a true 
testament to what the Department of Defense can contribute to 
U.S. and international security. I hope you will join me in 
keeping the team aboard the Cape Ray in your thoughts through 
the coming months as they help to eliminate the destabilizing 
threat of Syria's chemical weapons program.
    Their work follows on the heels of our success in assisting 
the Libyans in destroying the last of Gaddafi's weapons of mass 
destruction. Through DOD's Nunn-Lugar Cooperative Threat 
Reduction [CTR] program, we provided security upgrades, 
technical expertise, and support to the transitional council 
and elected government of Libya.
    This February I joined our Libyan partners, U.S. Ambassador 
Deborah Jones, the director general of the Nobel Prize-winning 
Organization for the Prohibition of Chemical Weapons, and 
others to celebrate the destruction of Libya's last chemical 
weapons. In both Tripoli and at the destruction site near 
Waddan, we had the honor of meeting dozens of Libyan workers 
who have put an end to the threat of Gaddafi's weapons of mass 
destruction.
    These are just two recent examples of our success in 
leading U.S. innovation and developing international 
partnerships to mitigate the risk of states, terrorist 
organizations, or rogue individuals accessing and using 
chemical, biological, and nuclear materials.
    The President's fiscal year 2015 budget request allows us 
to continue countering the threat of weapons of mass 
destruction in an astonishing variety of ways. Our work ranges 
from pathogen consolidation and medical biodefense and 
countermeasure work, biodefense preparedness with the Republic 
of Korea, to nuclear counterterrorism and threat reduction 
cooperation with two of our closest allies--the United Kingdom 
and France--to our efforts to improve our response to a 
potential nuclear incident or accident here in the United 
States.
    I hope my testimony for the record highlights that we are 
leading the Department of Defense in innovation and agility, 
countering the weapons of mass destruction threats that exist 
today and foreseeing, preparing for, and preventing those that 
may emerge in the future. This work is critical for protecting 
the American people and promoting U.S. security interests 
globally.
    I appreciate the opportunity you have given us to testify 
today and would be pleased to answer your questions.
    [The prepared statement of Mr. Weber can be found in the 
Appendix on page 27.]
    Mr. Thornberry. Thank you.
    Ms. Hersman.

 STATEMENT OF REBECCA K.C. HERSMAN, DEPUTY ASSISTANT SECRETARY 
    OF DEFENSE FOR COUNTERING WEAPONS OF MASS DESTRUCTION, 
                     DEPARTMENT OF DEFENSE

    Ms. Hersman. Chairman Thornberry, Ranking Member Langevin, 
and members of the subcommittee, I am pleased to testify today 
with my colleagues from the Office of the Secretary of Defense, 
the Defense Threat Reduction Agency, and the Joint Program 
Executive Office for Chemical and Biological Defense about 
DOD's ongoing efforts to counter the threats posed by weapons 
of mass destruction.
    Pursuit and potential use of WMD by actors of concern pose 
a grave threat to the security of the United States as well as 
that of our allies and partners around the world. The constant 
evolution of weapons materials, tactics, and technologies will 
continue to challenge our ability to deter, detect, and defend 
against these threats.
    At the same time, the interconnectedness of global 
communities allows WMD threats to proliferate at the speed of 
an airliner, a missile, or even the Internet. Countering such 
threats requires flexible and agile responses, capable 
partners, as well as whole-of-department, whole-of-government, 
and even whole-of-international-community solutions.
    For DOD, cooperation is a force multiplier, enabling swift, 
comprehensive action to respond to existing and emerging WMD 
threats. The extraordinary effort to deal with serious chemical 
weapons program unprecedented in its scale, speed, and 
complexity, is a case in point.
    Today, thanks to our international partners and support 
from Congress, Syria's chemical weapons program is on the path 
to elimination. The centerpiece of the U.S. contribution, the 
motor vessel Cape Ray, is outfitted with DOD's recently 
developed Field Deployable Hydrolysis Systems and manned by the 
finest experts from our operational and technical communities. 
It is now ready to neutralize the most dangerous chemicals in 
the Syrian arsenal in a safe, secure, and environmentally sound 
fashion.
    This type of creative, collaborative approach to a WMD 
challenge can't be the exception; it must be the rule.
    In addition to chemical weapons threats, other WMD concerns 
warrant similar collaborative approaches today. On the 
biological front, advancing technology, unsecured pathogen 
stores, and weak national controls create dangerous 
opportunities for hostile state and non-state actors to 
acquire, proliferate, or use biological agents with potentially 
catastrophic consequences.
    To protect our forces, reduce risks to our citizens, and 
respond effectively to crises, DOD must build holistic 
solutions across its bio-prevention and biodefense efforts. We 
will continue to prioritize efforts to secure pathogens 
worldwide, foster a strong bio-security culture, enhance 
detection and strategic warning, and integrate more effectively 
with partners.
    At the same time, we must protect our forces against a 
broader range of biological agents and preserve their ability 
to dominate the battlefield even when biological risks are 
present. We recognize that DOD's efforts to protect our forces 
and our security from biological threats rely heavily on the 
broader public health infrastructure, and accordingly, we have 
strengthened relationships with health services, academia, and 
industry partners.
    This need for cross-cutting collaboration is required at 
the international level, as well. The administration's Global 
Health Security Agenda, which calls for accelerated 
international progress in improving capacities to prevent, 
detect, and respond to outbreaks of infectious disease, is 
fully aligned with DOD priorities and allows us to leverage our 
existing investments effectively in support of enhanced global 
capacities.
    Of course, nuclear threats also remain a prominent concern. 
Unless arrested and reversed, the nuclear ambitions of 
countries like North Korea and Iran can imperil the interests 
of the United States and our allies and partners around the 
world, creating instability and increasing the likelihood that 
other nations may seek to become nuclear-armed states.
    Our goal remains to prevent proliferation and prevent the 
loss of control of nuclear materials, components, or weapons 
themselves through better nuclear security and proliferation 
prevention efforts. At the same time, however, DOD will 
continue to work closely with U.S. interagency and foreign 
partners to enhance our planning and capabilities for nuclear 
terrorist threats or incidents.
    Looking ahead, our counter-WMD efforts must address not 
only today's challenges but also those that may emerge in the 
future. In doing so, we must bring the full countering WMD tool 
kit to bear, leveraging partnerships and lessons learned to 
respond quickly and decisively.
    I thank you for your support for the fiscal year 2015 
budget and look forward to your questions.
    [The prepared statement of Ms. Hersman can be found in the 
Appendix on page 35.]
    Mr. Thornberry. Thank you.
    Mr. Myers.

  STATEMENT OF KENNETH A. MYERS III, DIRECTOR, DEFENSE THREAT 
                        REDUCTION AGENCY

    Mr. Myers. Chairman Thornberry, Ranking Member Langevin, 
members of the subcommittee, it is an honor to be here today to 
share with you the work being done to counter the threats posed 
by the proliferation and use of weapons of mass destruction.
    There are three entities co-located at our facility at Fort 
Belvoir: the Defense Threat Reduction Agency, the United States 
Strategic Command Center [SCC] for Combating Weapons of Mass 
Destruction, and the United States Strategic Command 
[USSTRATCOM] Standing Joint Force Headquarters for Elimination. 
Each one of these entities has different mission areas, 
authorities, requirements, and funding, but they are all 
located together and intertwined in order to leverage expertise 
and coordinate efforts.
    Our success is determined by what doesn't happen--what we 
prevent, what we help to interdict, what we eliminate, what we 
mitigate, and how prepared we are to respond.
    As a combat support agency we are available 24 hours a day 
to support the combatant commands and military services to 
respond to any WMD threat. This requires us to not only address 
current needs but also to anticipate future threats to our 
warfighters.
    At our Defense Agency role we manage a research and 
development portfolio to develop tools and capabilities. In 
fact, DTRA provides the Special Operations Command with all of 
their counter-proliferation science and technology.
    As a USSTRATCOM Center, we support the synchronization of 
Department of Defense planning efforts to counter weapons of 
mass destruction. And the complementary Standing Joint Force 
Headquarters for Elimination provides operational support for 
U.S. military task forces in hostile environments.
    One of the best examples of the capabilities that DTRA/SCC 
can provide and the missions that we take on is our work in 
Syria. We had the expertise to evaluate the serious WMD threat; 
we developed the needed technology with Carmen Spencer and his 
team at Edgewood; and we provided planning support to all 
aspects of the operation. Now the Cape Ray, the ship that 
houses the two Field Deployable Hydrolysis Systems, stands 
ready to begin destruction once all the chemical materials are 
out of Syria.
    Another mission-critical area for us is the intersection of 
terrorism and the acquisition of WMD materials, particularly 
biological threats. This is an emerging and evolving threat and 
we are expanding our areas of cooperation to stay one step 
ahead.
    We work closely with the Centers for Disease Control [CDC] 
and we often pursue global health security projects together 
internationally. CDC handles public health issues but they are 
not equipped to address the security threats posed by deadly 
pathogens. We are.
    I am proud to announce that earlier this year we signed a 
memorandum of understanding and strategy for joint work with 
the CDC. These documents will maximize our effectiveness 
related to bio-threats around the world and ensure there is no 
duplication of efforts.
    Finally, DTRA/SCC recently completed the destruction of 
weaponized mustard agent in Libya. As ASD [Assistant Secretary 
of Defense] Weber mentioned, we destroyed 517 mustard-filled 
artillery rounds, eight 500-pound aerial bombs, and 45 launch 
tubes.
    I am proud of what our team has achieved and believe that 
we are good stewards of the taxpayer's dollar.
    As we look to fiscal year 2015, I am confident that we are 
prepared to address future WMD threats around the world. I am 
hopeful that the committee will fully support our budget and 
allow us to continue our important work.
    Thank you again for the opportunity to be here today, and I 
would be pleased to respond to your questions.
    [The prepared statement of Mr. Myers can be found in the 
Appendix on page 45.]
    Mr. Thornberry. Thank you.
    Mr. Spencer.

STATEMENT OF CARMEN J. SPENCER, JOINT PROGRAM EXECUTIVE OFFICER 
   FOR CHEMICAL AND BIOLOGICAL DEFENSE, DEPARTMENT OF DEFENSE

    Mr. Spencer. Mr. Chairman, Ranking Member Langevin, and 
distinguished members of the subcommittee, thank you for the 
opportunity to testify on behalf of the Department of Defense 
Chemical and Biological Defense Program. I am going to provide 
an update regarding the program's contribution to the mission 
of countering weapons of mass destruction.
    The fiscal year 2015 budget request for the program 
includes $320.5 million for procurement, $553.6 million for 
advanced development, and $407.2 million for science and 
technology efforts, for a total of $1.387 billion. The budget 
request supports the program's four enduring strategic goals of 
equipping the force, preventing surprise, maintaining our 
infrastructure, and leading the enterprise.
    Continued realization of these goals is significantly 
impacted by progress in our emphasis areas of medical 
countermeasures, diagnostics, biosurveillance, and 
nontraditional agent defense.
    Medical countermeasures include capabilities to protect our 
warfighters against chemical, biological, and radiological 
threats. We develop both prophylaxes, such as vaccines to 
immunize personnel, and therapeutics to treat personnel in the 
event of exposure.
    To harmonize our efforts with other Federal agencies, DOD 
participates in a Public Health Emergency Medical 
Countermeasures Enterprise, which is led by the Department of 
Health and Human Services. Typifying coordination within this 
interagency body is the Portfolio Advisory Committee, which 
works to ensure that we align DOD and Health and Human Services 
resources for medical countermeasures development.
    To accelerate the fulfillment of our unique requirements we 
are establishing the DOD Medical Countermeasures Advanced 
Development and Manufacturing Capability. The intent is 
flexible and modular manufacturing to support DOD quantities, 
which are significantly less than Health and Human Services 
quantities for the overall U.S. population. We are working with 
our unique industrial base, which in this specialized area is 
normally small business.
    With respect to DOD diagnostics, the ability to rapidly 
identify agents of concern, we have sharpened our portfolio by 
increasing the capability of our fielded product while moving 
forward to develop our follow-on system. The plan is for this 
follow-on capability, known as the next-generation diagnostic 
system, to replace the currently fielded joint bio agent 
identification and diagnostic system beginning in 2017.
    Consistent with the National Strategy for Biosurveillance 
and Global Health Security Agenda, we are applying our 
expertise and equipment to improve situational awareness for 
the warfighter. A prime example is our ongoing Joint United 
States Forces Korea Portal and Integrated Threat Recognition 
advanced technology demonstration, also known by the acronym 
JUPITR. Currently underway, this effort is providing specific 
detection and analysis resources to address the need for 
biosurveillance on the Korean Peninsula.
    Regarding nontraditional agents, the fiscal year 2015 
budget request supports continued evaluation of threats and the 
testing of developmental technology to enhance the capability 
of our current systems. To address the need for a near-term 
capability to combat emerging threat materials we have already 
provided 57 domestic response capability kits to the National 
Guard Weapons of Mass Destruction Civil Support Teams, which 
include detection, personnel protection, and decontamination 
capabilities.
    Lastly, for the mission to destroy Syrian chemical weapons 
the DOD created the Field Deployable Hydrolysis System, a 
transportable, high-throughput neutralization system designed 
to convert chemical warfare material into compounds unusable as 
weapons. The DOD response in this case is an excellent example 
of innovation and agility.
    An acquisition effort was launched in February 2013 and the 
first system delivered less than 6 months later. The capability 
is now deployed. When the ship Cape Ray receives Syrian 
chemical warfare materials it will head out to international 
waters to carry out the process of destruction using the 
capability that the U.S. would not have had but for this rapid 
effort.
    As this subcommittee is well aware, a confluence of 
technological, political, economic factors are making the 
current security environment as challenging as any the Congress 
and the President have faced in the Nation's history. Continued 
collaboration is critical to maintaining the technological 
advantage currently held by our forces.
    Mr. Chairman, Congressman Langevin, and members of the 
subcommittee, on behalf of the men and the women of the 
Chemical and Biological Defense Program, thank you again for 
the opportunity to testify, and thank you for your continued 
support.
    [The prepared statement of Mr. Spencer can be found in the 
Appendix on page 62.]
    Mr. Thornberry. Thank you.
    Before we begin questioning I might just alert everyone of 
two facts. One is, it seems votes have been moved up much 
sooner, and so we are going to have votes called here in 10, 15 
minutes or so.
    Secondly, Mr. Weber, by previous agreement, has to go to 
another subcommittee at 3:30 p.m., so if we have questions for 
him we are probably going to have to get him now because by the 
time we come back he will have been taken away from us. So I 
might just alert everybody to that.
    I will yield first 5 minutes to Mr. Franks.
    Mr. Franks. Thank you so much, Mr. Chairman.
    Mr. Weber, I will go ahead and take advantage of that 
opportunity.
    In your current role you are charged to prevent and protect 
against nuclear, chemical, and biological threats, just as you 
have done throughout your many years of public service, and I 
know that you have great insight in the impact of nuclear 
weapon use or EMP [electromagnetic pulse] attack could have on 
our critical infrastructure, including, of course, DOD. I know 
that DOD has, over the years, spent ridiculous amounts of money 
hardening--in a good way, in my judgment--hardening our triad 
and our missile defense capabilities and things because of the 
potential of having to deal with that--having to fight through 
that environment.
    And after 10 years of debate in the Pentagon and the 
Congress we still are here with very little effort made to 
protect our national civilian grid upon which the military 
depends upon for 99 percent of its electricity needs, at least 
in CONUS [contiguous United States]. Can you tell me where the 
threat of EMP attack falls on your priority list and what you 
are doing today to protect our nation from this asymmetric and 
potentially very dangerous threat?
    Mr. Weber. Thank you, Congressman.
    The potential threat of electromagnetic pulse is high on 
our priorities. We work very closely with the services. The 
Defense Threat Reduction Agency plays a critical role in this 
and Director Myers may want to add to my response.
    It starts with building radiation hardness into our 
systems, having standards that are required. As we design the 
systems we work with the services to ensure that they will 
function in an EMP environment.
    The testing that we do at Pax River [Naval Air Station 
Patuxent River] is an important part of this and we focus on 
our nuclear command and control systems and our platforms 
related to the nuclear weapons enterprise, but also to the 
whole range of general purpose capabilities that the services 
are producing.
    And then finally, DTRA conducts survivability assessments 
of our bases around the world, and EMP and radiation hardness 
is part of those assessments.
    As far as the critical infrastructure, that is primarily, 
in the United States, the responsibility of the Department of 
Homeland Security and we work closely with them. But we also 
work within the Department to try to increase their awareness 
and share our capabilities, really, which are the best in the 
government of the United States.
    Mr. Franks. Well thank you, sir.
    Mr. Myers, from what I am seeing, you know, DOD considers 
nuclear survivability, including EMP survivability, an 
important factor in its credible deterrent posture, and it has 
given special attention to all DOD assets considered critical 
to ensuring our national security missions. And back in the 
1990s the DOD implemented the Military Standard 188-125 to 
protect themselves from EMP. At that time I thought it was a 
very good standard.
    Now we have a few more decades of information. Do you 
believe that the MIL Standard 188-125 is still the best 
guideline for protecting critical infrastructure for our 
national defense against an EMP attack? And are you aware of 
any tests--I want you to be careful about what you have to say 
as far as any sensitive information--are you aware of any tests 
that may have found that standard inadequate, and what is DTRA 
doing today to defense against that threat?
    Mr. Myers. Thank you, Congressman. As Assistant Secretary 
Weber mentioned, the EMP threat is something the Defense Threat 
Reduction Agency is very involved in. We work closely with our 
colleagues, the combatant commands, military services, as well 
as the Defense Science Board, which is also looking at this 
issue.
    Sir, with your warning in mind, if it is okay I would like 
to take your question for the record----
    Mr. Franks. I think it is very important, Mr. Myers, and I 
asked the question for a very important reason so I hope you 
will do that. And just----
    Mr. Myers. I will, sir.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Franks [continuing]. To reiterate, MIL Standard 188-
125, and it might be good to--perhaps to give our office a 
briefing if there is some opportunity to get some insight as to 
why we think that is important.
    Mr. Myers. We would be happy to do that, sir. And I know we 
have experts from the Defense Reduction Agency who have briefed 
this committee on a couple of occasions and we will continue to 
be available to do so at the committee's request.
    Mr. Franks. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Thornberry. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    And Secretary Weber, I will start with you and then others 
can comment as well, but let me get right to it in that much of 
the current guidance that we have for our strategy on 
countering weapons of mass destruction quite frankly is several 
years old. The most recent military strategy on the subject is 
from 2006.
    However, the world climate has changed significantly since 
then. Have we considered updating our military strategy for 
countering WMD?
    Mr. Weber. Yes. Absolutely. That strategy is in the process 
of being updated, and I will ask my colleague, DASD [Deputy 
Assistant Secretary of Defense] Hersman, to elaborate since her 
office is leading that effort.
    But the strategy is being updated to reflect changes since 
the last strategy was issued, to reflect the global nature of 
these threats, and as you noted in your opening remarks, the 
increasing availability and proliferation of dual-use 
technologies around the world and an increased emphasis on 
prevention.
    Mr. Langevin. Good. Thank you.
    Secretary Hersman.
    Ms. Hersman. Thank you.
    Indeed, the process to develop a new Department of Defense 
strategy to counter weapons of mass destruction is well along. 
We are in the final stages of the approval and signature 
process, and that document will, upon signature, replace the 
National Military Strategy for Combating Weapons of Mass 
Destruction from 2006.
    Mr. Langevin. What is the anticipated completion date?
    Ms. Hersman. It is in the final stages, sir, of going 
through, we would expect in a matter of weeks to a month or 
two----
    Mr. Langevin. Thank you.
    Ms. Hersman [continuing]. For signature.
    Mr. Langevin. Thank you. I know we all look forward to 
having that document completed then.
    Let me turn to this then: The fiscal year 2015 request for 
DTRA is $180 million less than the fiscal year 2014 enacted, 
and the majority of those cuts are out of the Cooperative 
Threat Reduction program. It is my understanding that Moscow's 
unwillingness last year to renew the old CTR umbrella agreement 
has reduced the amount of work that we can do in Russia, but 
this hardly seems to explain all of the cuts.
    Are there priorities or goals that are being deferred or 
scrapped because of the budget cuts? And are there other 
initiatives that the program could be pursuing?
    Mr. Weber. Congressman, we are accepting some risks. These 
are prevention programs, and as Director Myers noted, it is 
when we fail to prevent something, you know, that is the 
ultimate metric for these programs.
    I am comfortable that our investments in biological threat 
reduction on a global basis as part of the President's Global 
Health Security Agenda, in cooperation with CDC, which is 
really at an unprecedented level, is fully adequate.
    We perhaps could do more in the area of global nuclear 
security because our partners in the Department of Energy 
National Nuclear Security Administration are also in a 
difficult budgetary climate, and I think there is some room--
some potential opportunities for increased partnership with 
them, and those--our dialogue with our partners there is 
underway.
    And also in the area of all-hazards CBRN [chemical, 
biological, radiological, and nuclear] preparedness and 
response, I think there are some opportunities to work with 
more partners to enhance their capacity to prevent, plan, and 
prepare for, and deal with the consequences of a CBRN incident. 
So we would like to work with this subcommittee moving forward 
to identify future areas of effort.
    Thank you.
    Mr. Langevin. Thank you.
    Secretary Hersman, do you have something to add?
    Ms. Hersman. I agree fully that the budget is sufficient 
for the requirements we have identified for the upcoming year. 
We believe, in addition to the decline in resources that we had 
to apply to Russia, also the investments we have made in 
chemical weapons destruction through fiscal year 2014 we think 
will be completed in that year.
    But we do evaluate the program fully every year and are 
prepared to evaluate new requirements, for example in 
proliferation and prevention, as we go forward in the process.
    Mr. Langevin. Well, I know my time is expired but I will 
just say that I think some of these cuts--they really raise red 
flags with me, very concerning. Clearly the threats have not 
gone away, they haven't diminished, and yet we are cutting 
areas that I believe that we are cutting off our nose to spite 
our face, and I am concerned that we are going to regret the 
day that we didn't put proper investments into the programs 
under your responsibility.
    With that, Mr. Chairman, I will yield back.
    Mr. Thornberry. Thank the gentleman.
    Mr. Weber, before we lose you let me just ask a couple 
things. We held a hearing in October with outside experts on 
bio dangers and defenses. In your opinion, are the dangers to 
our national security from biological agents growing or 
shrinking?
    Mr. Weber. The dangers from biological threats to our 
country and our friends and allies is increasing. As the 
ranking member noted in his opening remarks, technologies are 
increasingly available.
    And I think the threat of biological terrorism is--of the 
different weapons of mass destruction terrorism threats, is 
probably the most likely because it lends itself to small, 
violent extremist organizations or even individuals. And 
therefore, it is a much harder problem to deal with. We are 
very concerned about state biological weapons programs--for 
example, the DPRK [Democratic People's Republic of Korea] bio 
program, which is quite sophisticated.
    But when we look at non-state actors, it is really any 
country in the world could unwittingly provide the materials 
and the technologies needed for terrorist groups to develop a 
bioterrorist weapon. So this is why we are putting so much 
emphasis on this in our fiscal year 2015 budget request.
    Mr. Thornberry. One of the suggestions made by that outside 
group of witnesses was a coordinator in the White House would 
be of assistance in helping make sure that all of the different 
agencies of government--not only Department of Defense, but HHS 
[Health and Human Services], FDA [Food and Drug 
Administration], Homeland Security--were better coordinated in 
this very difficult area that is not just something that faces 
our troops; it is something that can face homeland, sir. Just 
generally, do you think that is a good idea or not?
    Mr. Weber. The White House has played a very important 
leadership role. Especially in the last few years, we have 
increased our investments on our medical countermeasures 
capabilities.
    And the advanced development and manufacturing facility 
that Carmen Spencer mentioned that we are funding through the 
Department of Defense is going to give the Department an 
agility, an on-demand production capability for small batches 
for our forces or perhaps even for just special operations 
forces that could be exposed to threats that wouldn't 
necessarily be as great a concern to the homeland. For example, 
we are the only ones that have a bot [botulinum] toxin and a 
ricin toxin vaccine program.
    Mr. Thornberry. And I want to get back into that probably 
after--in greater detail, but my question was, do you think it 
would be helpful to have someone at the White House coordinate 
across these different departments and agencies that otherwise 
basically are left to do so voluntarily?
    Mr. Weber. It is always helpful, of course, and we do have 
coordination from the White House, from both the 
counterterrorism side, the resilience side, as well as the 
countering WMD side. The mechanism we use for day-to-day 
programmatic coordination of our portfolio is the Public Health 
Emergency Medical Countermeasures Enterprise that is chaired by 
the Department of Health and Human Services, and the 
Departments of Defense and Homeland Security are active 
partners in that.
    So we have good coordination day to day.
    Mr. Thornberry. Okay. Well, I may want to talk more about 
this in just a moment.
    Let me just check. Mr. Johnson, do you have a question 
specifically for Mr. Weber? Because he will not be able to come 
back, probably, after votes.
    Mr. Johnson. Yes, I do.
    Mr. Thornberry. I will yield to the gentleman.
    Mr. Johnson. Thank you.
    Mr. Weber, what did you learn about the benefits of 
programmatic flexibility and anticipating of emerging threats 
from the Syria chemical weapon destruction mission?
    Mr. Weber. The lessons from the Syrian chemical weapons 
destruction mission were that we need that agility and 
flexibility and close partnership with the Intelligence 
Community. Based on extraordinarily good intelligence on the 
composition of the Syrian chemical weapons stockpile, we were 
able within just 6 months to tailor-make a capability for that 
stockpile, and it is the Field Deployable Hydrolysis System 
that is now mounted on the Cape Ray vessel. So that was one 
lesson.
    Another lesson was programs like the Nunn-Lugar Cooperative 
Threat Reduction program give us the flexibility to act 
quickly. We used those program resources to help neighbors of 
Syria--in particular, Jordan--improve its capability to deal 
with CBRN incidents, to interdict at its borders CBRN 
proliferation.
    So the lessons are that we need that flexibility, we need 
that close cooperation with the Intelligence Community, and we 
need an expeditionary capability.
    Mr. Johnson. Thank you. And to what extent has budget cuts 
impacted your ability to fulfill future mission requirements?
    Mr. Weber. Well I would say in general the budget 
situation--and fortunately we have a little bit of stability in 
2014 and 2015, but this looming threat of sequestration coming 
back in fiscal year 2016 creates uncertainty and is forcing the 
Department to make very, very, very hard choices.
    Mr. Johnson. Thank you.
    I will yield back.
    Mr. Thornberry. With that we are going to--Mr. Weber, you 
are excused because I think we are going to be pretty much an 
hour or 45 minutes or so.
    And so if you all, hopefully, can have a little flexibility 
in your schedules, Tom will buy you a bottle of water or 
something. And in the meantime, we will stand in recess and 
then we will come right back after votes.
    [Recess.]
    Mr. Thornberry. We will go ahead and get started as Jim is 
working his way back over here again.
    Thank you all for your patience and understanding with our 
schedule.
    Let me go back to a question I asked Mr. Weber and see if 
you all would like to comment. The point was made in our 
previous hearing, as Mr. Weber said, this is a growing problem, 
one of the more likely scenarios of terrorists using WMD would 
be with bio, but it gets complicated for all the reasons you 
all know very well. And some sort of mechanism to assist in 
greater coordination among the departments and agencies of the 
government they thought was significantly needed.
    Now, you know, I will just say, okay, I know there is 
coordination going on now. But the question is, particularly 
with something like this that goes across several different 
departments, civilian and military--I--maybe it is a little 
similar to cyber, where we do have someone in the White House 
who is coordinating cyber across different agencies. Shouldn't 
we have someone whose specific job responsibilities it is to 
coordinate in the area of biodefense?
    Ms. Hersman, we will start with you.
    Ms. Hersman. Mr. Chairman, I would have to reiterate, we 
have an extensive and robust interagency coordination process 
that includes representatives from the various elements of the 
White House, and they convene all of those departments and 
agencies that you describe across bio threats. We saw this in 
terms of the Global Health Security Agenda, where those 
meetings were co-chaired and brought together in the 
development of that, along with the very strong interest that 
the President has brought to the overall problem of countering 
biological threats.
    From my personal vantage point, I don't feel that I have 
observed a deficit of coordination. In terms of 
organizationally, how it would be best represented within the 
White House, I would need to defer to them.
    Mr. Thornberry. Okay. Well I will just say, convening a 
meeting is not necessarily the end-all be-all in this problem. 
And I think your point is a good one: There is no substitute 
for Presidential interest and leadership in this or any other 
area. But the President cannot do everything and cannot follow 
it day to day.
    Let me move to another specific issue that came up during 
that hearing, and that is the--and several of you all 
referenced it in your opening comments--DOD's own capability to 
manufacture biodefense drugs and vaccines, and whether or not 
it might be more efficient and in other ways better to have an 
agreement with HHS and their manufacturing capabilities rather 
than DOD having its own. Explain to me why DOD needs its own 
facilities.
    Mr. Spencer. Mr. Chairman, I would be happy to do that.
    Mr. Thornberry. Yes. Mr. Spencer, you mentioned that in 
your opening comments.
    Mr. Spencer. Yes. For example, Big Pharma and Health and 
Human Services, they are concerned about diseases that will 
impact the entire U.S. population, so when they put their 
business case analysis together they are talking literally tens 
of millions of doses, and that is what interests Big Pharma.
    In DOD we are talking biological threats of interest that 
can affect our Armed Forces globally wherever they may have to 
deploy, and we are talking tens of thousands, maybe if we are 
lucky up to 200,000 potential doses. Big Pharma is not 
interested in that.
    As a result of that, we have to deal with small business, 
and that is a good thing. And our dedicated facility that we 
are constructing now in Florida will enable us to have a 
facility that we can go to whenever we need it to develop 
advanced development and produce the vaccines that we need on 
very short notice, in conjunction with the FDA, to meet our 
battlefield requirements. And it will also give us an 
opportunity to mentor and work with small business to develop 
their capabilities.
    But it really is a partnership between DOD, small business, 
and the Food and Drug Administration to make this a success. 
That is why we need a dedicated facility for DOD.
    Now that said, we work very hard and we meet monthly with 
Health and Human Services to develop our prioritization for 
what we are both developing to ensure that there is no overlap, 
no waste of resources, and we are both doing what is best for 
the Nation for both not only the Armed Forces but for the 
Nation as a whole.
    Mr. Thornberry. Why do you need your own facility versus 
walling off part of one of the bigger HHS facilities dedicated 
for DOD's use?
    Mr. Spencer. Having the ability to go directly to a 
facility that we control, where we control the schedule, the 
priority of what goes in there, is modular, very flexible under 
today's technological standards, and pre-FDA-approved for the 
types of vaccines that we need to develop is critical for us.
    Again, HHS in their facilities, they are not focused on 
developing weaponized biological agents that are very toxic and 
very deadly. They are more focused on endemic diseases and 
preparing the U.S. population.
    Mr. Thornberry. Well, I hope they are prepared for a 
biological terrorist event. I think you could be a good 
influence on them, and then maybe they could be a helpful 
influence on you all.
    I mean, I hear your point. I think it is important. I just 
worry that we are going down two different paths--separate 
paths--and the world is not going to work that way; it is all 
going to be jumbled up together and it is going to be hard to 
pick out one versus another. And obviously, this sort of dual-
track preparation comes at added cost, as well.
    I would yield to Mr. Langevin for any questions he would 
like.
    Mr. Langevin. Thank you, Mr. Chairman.
    And I will echo the chairman's concern. And I am worried 
that we are going to see duplication of effort or the 
investment being too thin across a variety of the areas because 
the resources aren't just there, as opposed to trying to better 
coordinate and focus on the real threats that we do face--the 
country.
    And I would take issue with the statement that HHS may not 
be focused on weaponized biologics. I know, for example, having 
chaired the former Homeland Security Subcommittee on Emerging 
Threats and Capabilities, that HHS was, in fact, looking at 
biodefenses for anthrax, including weaponized anthrax. So I 
know that they do have a focus on that. It has been a while and 
I don't know exactly what, you know, again, the progress that 
has been made.
    But I would tend, in these times of reduced resources, I 
think it makes much more sense to reassess and to see how we 
can better coordinate these activities and make sure the 
investments being made are in the right areas based upon the 
most likely threats or types of things that might be developed 
that would threaten our populations or our troops.
    So let me, on this--to give point, let me just turn to a 
question. In a recent Defense Science Board report from October 
of last year titled ``Technology and Innovation Enablers for 
Superiority in 2030,'' the board concluded that the opportunity 
for technological surprise is greatest for WMDs and expressed 
concerns about the ability to detect the signatures associated 
with weapons of mass destruction, given the advancements of 
technologies that would reduce or even eliminate some of the 
signatures we depend upon today. The impacts of such 
technological shift would be extremely grave in many regards.
    Could each of you respond to the board's conclusion and 
assess whether you feel our counter-WMD efforts are posturing 
us appropriately to deal with future threats? And perhaps, you 
know, in that you could address my concern about not sufficient 
coordination with each--across government on WMD.
    Mr. Myers. Ranking Member Langevin, I will take a first try 
at your question.
    First and foremost, our counter-WMD programs are based upon 
the threat. It is based upon the evaluation that we are 
receiving from the Intelligence Community. That is what is 
guiding us.
    So the prospect for surprise is always there. It is always 
a concern. But we are staying very closely tied with the 
information that we are receiving from resources and sources 
all over the world. And in a lot of cases those sources and 
resources that we are getting information from are partners 
that we are cooperating with in Sub-Saharan Africa, in the 
Middle East, in Southeast Asia.
    And one of the things that we have been discussing today is 
the focus on the biological threat, as you both have pointed 
out. And one of the things that has occurred during my tenure 
at the Defense Threat Reduction Agency is a real shift.
    I mean, 5 years ago when I was before this committee I was 
talking about a lot of the efforts that we had underway in 
Russia in the former Soviet Union in terms of nuclear, 
chemical, and biological threats. And today we are here talking 
to you a lot about our programs in Africa, the Middle East, and 
Southeast Asia.
    And I believe that is for two reasons: one, we have been 
successful in working with the states, the former Soviet Union, 
and addressing many of the threats that are there; but 
secondly, we are trying to stay one step ahead of the threat, 
and we know there are violent extremist organizations [VEOs] 
and terrorist groups that are seeking weapons of mass 
destruction in those new areas, and that is why you will see 
our budget continue to evolve, because we are seeking to stay 
one step ahead.
    We are also trying to get upstream, if you will--further to 
the left, in terms of disrupting potential VEO and terrorist 
efforts. I will tell you, I--as Assistant Secretary Weber was 
answering the question earlier, just in the last 2 weeks we 
have seen an Ebola outbreak in Guinea, and we have seen a ricin 
incident at Georgetown University. I mean, polar ends--polar 
opposite, if you will, on the threat spectrum, if you will--
obviously one naturally occurring, one man-made.
    But it really shows a diversity of the threat that we are 
trying to address.
    I would also say, I have been to visit our employees 
working in these locations, and I will just share one story or 
one vignette. A health clinic in Sub-Saharan Africa--it was 
there because there are significant outbreaks of anthrax and 
other types of infectious diseases, and this health clinic 
keeps those strains on file so they can compare potential 
outbreaks against what they have there.
    And the problem that they encounter--they have a real-world 
health reason to have these things, and the concern is the 
safety and security in which they are being stored. Do people 
know who has access to it? Is the security surrounding it more 
than just a wax seal on the refrigerator?
    Is there a computerized tracking mechanism so everybody 
knows who was the last person in the room? Who was the last 
person who had access to it? Why did they have access to it? 
What were they doing with it?
    And it is these types of programs or these types of 
projects that we are attempting to stay one step ahead of the 
threat. And I will tell you, every single dollar that we can 
spend at the source makes our response and makes our efforts 
much more effective and more efficient than if we try to 
intercept or intercede or react once the threat has left its 
source.
    So I would just say, in direct response to your question, 
Congressman Langevin, we are working very, very hard to stay 
ahead of the curve. We have to be perfect every single day. And 
so far we have got a pretty good track record, but the future 
is clearly ominous.
    Mr. Langevin. But that doesn't really go to the heart of 
the question of why shouldn't we reassess how we are doing this 
and pull resources and have--much better coordination and 
collaboration? I mean, that is what science is. It is research; 
it is investment; it is collaboration and sharing knowledge. 
And wouldn't that be a force multiplier in itself that would 
yield return on investment and hopefully help to speed the 
defenses for WMD or particularly advanced biologics that we 
would--that would threaten our populations?
    Mr. Myers. Ms. Hersman and I were just discussing who might 
be the best person to respond to your question, Congressman. 
Let us split in two, if you would, and I will kind of take the 
technical side and Ms. Hersman will tackle the policy side.
    On the technical side, sir, I would just say that that kind 
of cooperation and coordination is occurring today. And I 
understand that is not the question that you are asking, but I 
just want to put your mind at ease a little bit.
    That is exactly why we developed the relationship that we 
did with the Centers for Disease Control, and that is why we 
are pursuing similar relationships with the other actors that 
you outlined. And it is because it is very difficult to 
distinguish sometimes what phase this threat may be in. Is it 
in a public health stage? Is it in a security stage?
    And right now what we are doing with the Centers for 
Disease Control is actually sitting down with them on a daily 
basis and developing country strategies. In other words, if we 
are going to engage in country X, the country teams that are 
working in that from the Defense Threat Reduction Agency, from 
OSD [Office of the Secretary of Defense] Policy, from 
elsewhere, as well as the Centers for Disease Control and 
Department of Health and Human Services are sitting down and 
identifying who is going to do what in each of the elements 
that are identified as a potential threat risk or opportunity 
for engagement.
    Again, I will leave the policy side to Ms. Hersman but I 
just want to assure you that that kind of coordination is 
happening right now. It is getting started, clearly could 
always move faster, could always do more countries quicker. But 
we are doing that right now and I think you are going to see a 
significant improvement in the days and weeks ahead on that 
matter.
    Mr. Langevin. Thank you.
    Ms. Hersman. Thank you. I would just add--I would agree, 
first of all, that indications and warning for WMD development 
programs and activities are indeed becoming harder to come by, 
and the opportunity for more strategic knowledge about how that 
development is occurring is, in fact, more difficult, 
especially as programs get smaller, are more focused on 
breakout capabilities within states, or smaller even laboratory 
or bench scale capabilities on behalf of potential non-state 
actors.
    I think as we look ahead we need to think about, are there 
new areas to look for indications and warning and how might we 
want to target our resources and our efforts overall? A couple 
I may suggest: First of all, we need to look carefully at 
following people and not just things and capability 
development, because at the end of the day, sometimes it is, in 
fact, the people who may be our indications and warning whether 
that represents an insider threat in a facility or a location 
or very good network tracking of potential non-state actors.
    The other thing that we are trying to look very carefully 
at is, where do we see problems becoming co-located, whether 
that is the presence of endemic disease and potentially hostile 
actors and weak government controls in a location, or where are 
there just opportunities in ungoverned territories and the 
presence or influx of extremist elements where they might have 
freedom of action to develop capabilities? We want to turn and 
look carefully there so that we can try to identify some of 
those problems before they fully emerge.
    Mr. Myers. Sir, if I may, I--let me make one last statement 
with regard to--if Mr. Weber were here I know he would be 
making this statement to you, so let me mention this. One of 
his biggest priorities over the last 12, 24, perhaps even 
longer is really increasing our ability to understand 
situational awareness--up-to-the-minute developments and 
changes so that we can be aware, we can serve and provide 
information and expertise to the combatant commands, to the 
military services. The situational awareness tool has been a 
high priority for him and has been for the Department.
    We are making some significant strides, and I think when 
you see--as that continues to mature and as you see that 
developing to an everyday tool, I think the comfort level will 
also increase significantly.
    Sorry to interrupt.
    Mr. Langevin. That is okay. Thank you.
    Mr. Spencer. One comment. Preventing technological surprise 
and trying to get to the left of an incident is critical for 
the warfighter. As a result of that, in our basic and applied 
research a significant amount of money, based upon what we know 
today on nontraditional agents and emerging threats, we are 
pooling the resources of academia as well as industry by giving 
them just enough data to come up with innovative approaches to 
very, very tough problems.
    Additionally, based upon what we know today on emerging 
threats and nontraditional agents, we have tested and 
revalidated the current capabilities--protective capabilities--
of all of our protective gear that we provide to our soldiers, 
sailors, airmen, and marines to make sure that it can withstand 
the threats that we know today.
    Mr. Langevin. Well, we are going to have to continue to 
keep focus on this, and I--again, I hope we are not squandering 
time and resources on a very serious problem. So thank you for 
your work.
    And I yield back, Mr. Chairman.
    Mr. Thornberry. Thank the gentleman.
    Mr. Myers, can you just give us a brief overview of 
Cooperative Threat Reduction and what it is doing today?
    Mr. Myers. Yes, sir. The largest area of expenditure for 
the program is in the biological threat reduction area, as we 
have just been discussing. And it is also--you can really watch 
the numbers over the last several years--really focused on 
these new areas of engagement--Sub-Saharan Africa, the Middle 
East, Southeast Asia. So that would be the largest portion of 
the CTR program.
    Secondly, I would point out to you that the Proliferation 
Prevention Program is another large area of investment. And 
this is where we are seeking to engage with partner countries 
to help them become better partners with us in terms of 
deterring or potentially interdicting and/or detecting WMD 
proliferation. I will give you a couple of examples.
    We are working very carefully with the coast guard of the 
Philippines to help them develop a capability to have better 
maritime situational awareness around their islands where there 
is an awful lot of traffic. Obviously a concern is WMD 
proliferation, but obviously drugs, human trafficking, and 
things such as that. So there are dual-use benefits.
    Obviously this year the other major area of investment is 
our work in Syria, and the outfitting of the Cape Ray with the 
Field Deployable Hydrolysis System that Carmen Spencer's team 
built and put together, and the operations and the security 
that is engaged with that.
    In addition, we still have ongoing nuclear security 
projects that we are engaged in as part of the President's 
strategy and the import he has placed on the threat of nuclear 
terrorism. We have a number of projects, in terms of building 
centers of excellence to share best practices on security and 
safety as well as ongoing security efforts in countries around 
the world.
    And lastly, obviously, we are maintaining--we must maintain 
an ability--a capability to continue to respond to these 
unforeseen or unknown threats today. So Libya is a perfect 
example. We knew of the threat there for a number of years; we 
were able to develop, through our research and development, an 
arm of the agency, a technical solution to that, again, with 
the experts in Carmen Spencer's shop. And when the opportunity 
for cooperation with the Libyan government appeared we were 
able to move very, very quickly.
    Lastly, I would be remiss if I didn't tell you, while all 
these programs are going on we are making sure that we have the 
ability in-house to do the audits and examinations to ensure 
that the money and the assistance and the projects and the 
contracts that we are executing are actually meeting the 
requirements that were identified and serving the U.S. 
taxpayers wisely and appropriately.
    Mr. Thornberry. Are there any of those CTR projects in 
Russia still?
    Mr. Myers. Yes. There are projects that were ongoing with 
the Russian Federation at the beginning of the hostilities in 
Ukraine, and a number of them were put on pause and were put on 
hold.
    Mr. Thornberry. And so right now all of those projects are 
on hold or not all of them?
    Mr. Myers. At the current time I believe they are--I am 
sorry. There are three projects that will be moving forward in 
the near future--continuation of them. I can run through them 
with you if you would like.
    Mr. Thornberry. Please.
    Mr. Myers. The first is a dismantlement of the Delta III 
ballistic missile submarine, and the view was that that was in 
U.S. national security interest to continue. Secondly was the 
transportation of nuclear fuel from an Alfa and a Papa 
submarine, and I think that that is it. Those are the only 
projects that are moving forward at this time.
    The other projects that are underway are currently delayed 
or on hold.
    Mr. Thornberry. And about how many of them are there that 
are on hold?
    Mr. Myers. As far as I know, just one.
    Go ahead.
    Mr. Thornberry. Yes. Ms. Hersman.
    Ms. Hersman. Those two projects actually represent the bulk 
of current activities that were identified as part of this 
transition from the traditional CTR program with Russia and 
that were going to be administered through this arrangement 
with DOE [Department of Energy]. Most of the other activities 
are fairly small-scale, but we have established mechanisms in 
cooperation with DOE so we can engage in joint projects and 
multilateral efforts with the Russians under CTR auspices.
    But those two are the bulk of the ongoing activity.
    Mr. Thornberry. Okay. Other than the CTR programs we have 
just talked about, are there other efforts we still have 
ongoing with Russia in chemical or biological or nuclear areas?
    Mr. Myers. Sir, the only thing I would add directly in a 
bilateral sense with Russia is obviously we are continuing the 
audits and examinations to ensure that the assistance or the 
cooperation we have had in the past continue to meet the letter 
of the requirements that were jointly developed by the United 
States and Russia, so that is ongoing. And obviously, this is 
not a bilateral CTR issue, but there is a level of cooperation 
and coordination with the situation ongoing in Syria.
    Mr. Thornberry. Sure. Sure.
    Mr. Myers. And they are playing a role there on the ground 
and also in support offshore with security.
    Mr. Thornberry. Okay. On the subject of Syria--and I am not 
sure if Mr. Spencer or Ms. Hersman can answer this best, 
whichever one of you: Why are we waiting to get all the 
material out before we start to do something with it?
    Ms. Hersman. If I may, I will start. There is both a 
policy-level and a technical answer to that question.
    First and foremost, the team that is waiting is being led 
by the Danes and the Norwegians, and the Maritime Task Force is 
off the coast of Latakia and is coming in and out to take the 
shipments onboard. It is vastly preferable to move all of those 
chemicals that will be moving onward to destruction locations 
for ``Priority Two'' chemicals or those ``Priority Ones'' that 
will be coming aboard the Cape Ray, and to make those movements 
all in one step.
    In the case of the Cape Ray, we need to go through a 
transload operation and have the Cape Ray join up at the Port 
of Gioia Tauro in Italy to transfer those items from the Danish 
vessel, the Arch Ventura. There is a strong preference to do 
that transload in one movement, and that will enable the 
technical side to make best use of the equipment and to destroy 
those chemicals most effectively.
    If we were to shuttle back and forth we would lose a lot of 
time in transition and we would have some additional 
significant complexities in terms of managing how we would do 
those transload operations multiple times. The Italians 
strongly prefer a single operation.
    Mr. Spencer. From a technical perspective, the operators 
onboard the MV Cape Ray are my operators, and there are 64 
brave volunteers going on this mission. It is a dangerous 
mission. Any time you are handling live chemical agents and 
going through a destruction process there is an inherent danger 
that is imposed.
    Transloading and handling the chemicals is the most 
dangerous part, and we would prefer to do that in one shipment, 
as Ms. Hersman stated.
    Also, once we start destroying the chemical agents 
themselves onboard the Cape Ray we would prefer to have them 
all there, start once, start slow, our primary concern being 
safety and protection of the environment, and get it done as 
quickly and as safely as we possibly can. And doing it in one 
large batch will enable us to accomplish that in much quicker 
time.
    Mr. Thornberry. One other thing I wanted to ask about, back 
on the subject of bio agents. Some years ago I participated in 
a war game at National Defense University, where the bio agent 
was foot-and-mouth disease in cattle. And whoever would like to 
describe this, can you--we talked about, obviously, the human 
diseases, but there is the potential for animals' diseases to 
also play a huge role in a potential bioterrorist event, or 
other hostile act, is pretty enormous, too.
    Describe for me a little bit how we are bringing in the 
animal health part of this.
    Ms. Hersman. I would fully agree that veterinary and 
agricultural biological agents can pose a grave hazard and a 
substantial economic disruption anywhere they might 
materialize. I am familiar with the war game that you attended, 
and it was enlightening, I think, for many of us who 
participated. So it is a top priority to make sure that 
veterinary and agricultural elements are brought overall with 
the human health aspects when we look at countering biological 
threats.
    I know we account for that within our Cooperative 
Biological Engagement Program through the CTR program. They 
actively partner with both sides of that equation, on the 
agricultural and veterinary elements within countries as well 
as in their public health sector.
    For some of those details I would like to turn to Director 
Myers, however.
    Mr. Myers. Mr. Chairman, our engagement on the agricultural 
level is as important as on the health side. In fact, it very 
often allows us to meet a whole new range of partners and 
individuals in these host countries and in these governments.
    Very often when we seek to engage a new partner, sometimes 
agricultural cooperation will move faster than on the health 
side for a variety of different reasons--local politics or just 
where our interests might align. So we approach each engagement 
ready to move forward at a brisk pace on whichever side, or 
both simultaneously, that we can.
    I would also point out to you that we are engaged on a 
multilateral level on the agricultural front, just as we are on 
the health side. And, you know, the FAO [U.N. Food and 
Agriculture Organization] is the equivalent of the World Health 
Organization, WHO, and we, again, are engaged with them, 
working with them. And, you know, as you point out, we have--
when we engage on the health side there is an interest in our 
partners' countries because the lives of their population may 
be at risk, but the same is true on the agricultural side as 
well, and there is also the additional benefit on their side in 
terms of potential impacts on their--on local industry and food 
markets.
    Mr. Thornberry. Well with all this coordination that you 
all have talked about here domestically for domestic terrorism 
preparation, that would include animal health as well.
    Mr. Myers. Yes, sir. I will use a foreign example, but we 
very often will invite the Department of Agriculture to come 
with us when we engage some of these foreign partners just 
because of the level of expertise, just because of the parallel 
initiatives.
    So I would suggest to you that the--again, the coordination 
is good there, and we seek out our agricultural colleagues very 
often.
    Mr. Thornberry. Okay. I think that is all we have for you 
all. I think we were easy on you today.
    But I do appreciate, again, your flexibility and I think 
the point you all make is very good. This is dangerous work and 
this is important work, and it is kind of like, as we deal with 
terrorism in general, we need to be right 100 percent of the 
time because that one time that slips through has potentially 
catastrophic consequences.
    So thank you for what you and your folks do.
    And with that, the hearing stands adjourned.
    [Whereupon, at 3:59 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             April 8, 2014

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 8, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 8, 2014

=======================================================================


             RESPONSE TO QUESTIONS SUBMITTED BY MR. FRANKS

    Mr. Myers. DOD MIL-STD-188-125-1 is a standard for High-Altitude 
Electromagnetic Pulse (HEMP) Protection for Ground-Based Command, 
Control, Communications, Intelligence (C4I) facilities performing 
critical time-urgent missions against a MIL-STD-2169C, DOD HEMP 
Environment. It provides performance criteria for hardening critical 
DOD fixed facilities against nuclear HEMP using an electromagnetic 
shielded barrier and electrical surge arrestors, and test protocols to 
validate HEMP hardness. The provisions of MIL-STD-188-125-1 were not 
developed for protecting critical civil infrastructure networks such as 
the electric power grid or telecommunications. To effectively protect a 
system, the standard must be applied in its entirety in order to 
achieve the strict time requirements that DOD demands for its C4I 
systems. However, MIL STD 188-125-1 allows for building size 
scalability. For example, an entire civil facility may not be critical 
but only certain systems or subsystems that provide critical functions 
and fit into a room. In this case the room can be retrofit hardened 
into an EMP protected asset.
    MIL-STD-188-125-1 was formally reviewed on April 7, 2005 and 
determined to be the best guideline for DOD use in acquisitions. DTRA 
is currently in the process of reviewing MIL-STD-188-125-1 again this 
year, and plans to re-issue an update in about one year. On the 
critical infrastructure side, there are other power grid initiatives 
being implemented by DHA, DOE, and FERC.
    MIL-STD 188-125-1 was designed to protect designated C4I facilities 
against the MIL-STD 2169C HEMP environment which is the Department's 
nuclear high-altitude EMP threat. We are not aware of any tests that 
have shown that the standard is inadequate for the purpose for which it 
was developed. We are continuously reviewing the standard and ways to 
improve our test protocols and security.
    If requested, we are prepared to give a briefing on MIL-STD-188-
125-1 to any Member of Congress and their staffs.   [See page 9.]

                                  <all>

</pre></body></html>
